No.
IN THE
SUPREME COURT of the UNITED STATES
________
Rodney Hogen, Susan Hogen and Marby Hogen,
Petitioners,
v.
Steven C. Hogen, Individually and as
Personal Representative of the Estate
of Arline H. Hogen, Deceased
Respondent.
________
On Petition For Writ of Certiorari
To The Supreme Court of North Dakota
________
PETITION FOR WRIT OF CERTIORARI
________
David Alan Garaas

Counsel of Record

Jonathan T. Garaas
Garaas Law Firm
1314 23rd Street South
Fargo, ND 58103
701-293-7211
garaaslawfirm@ideaone.net

i
QUESTIONS PRESENTED
1.

Does the decision of the Supreme Court of North
Dakota deprive the Petitioners of established
property rights in violation of the Due Process
and Equal Protection Clauses of the Fourteenth
Amendment to the Constitution of the United
States?

2.

Has the State of North Dakota, acting through
its judiciary, deprived the Petitioners of their
vested property rights without any real
opportunity to protect such rights in violation of
the Due Process Clause of the Fourteenth
Amendment?

3.

Were Petitioners Marby and Susan Hogen
denied vested property interests, in violation of
the Due Process Clause of the Fourteenth
Amendment, when the State of North Dakota’s
judiciary determined the Petitioners’ property
interests could be extinguished by a court
appointed personal representative although
Petitioners Marby and Susan Hogen were never
provided notice, nor made parties to the probate
proceedings that occurred after their property
interests were created?

4.

Did the North Dakota judiciary, under claimed
inherent powers, violate Petitioner Rodney
Hogen’s First and Fourteenth Amendment
constitutional rights when it imposed a sanction
that required him to pay all post-remand
attorney fees of the personal representative?

ii
LIST OF ALL PARTIES TO THE PROCEEDING
The caption of this Petition contains all of the
parties who have made an appearance in the probate
litigation below.
Steven C. Hogen, acting as a court appointed
personal representative, had sold Petitioners’ real
property interests in Barnes County, North Dakota to
Barnes County residents John H. Triebold, Alan N.
Triebold. Steven C. Hogen sold Petitioners’ property
interests in Cass County, North Dakota to Tulip Acres,
LLLP, a North Dakota limited liability limited
partnership, [privately owned] of Fargo, North Dakota.
Petitioners, consistent with the Petitioners’ service
process in the North Dakota probate litigation below,
will serve by mail the Petition for Writ of Certiorari on
these persons.
For purposes of adding clarity to this Petition for
Writ of Certiorari, the Petitioners identify the
relationship of the named parties in the caption of this
Petition.
Petitioner Rodney Hogen and Susan Hogen,
residents of Fargo, North Dakota, are husband and
wife. Petitioner Marby Hogen is the daughter of
Rodney Hogen.
Respondent Steven C. Hogen is a resident of
West Fargo, North Dakota. Steven C. Hogen was a
party to the litigation below as an individual, as the
personal representative of his mother Arline H.

iii
Hogen’s estate. Brothers Rodney Hogen and Steven
Hogen were the only devisees under their mother’s
Will.
PROCEEDINGS DIRECTLY
RELATED TO THIS CASE
Petitioners Marby Hogen and Susan Hogen are
also the Petitioners in the Supreme Court of the United
States docket number 18-1440. This Petition is directly
related to that case. Petitioner Marby Hogen and
Susan Hogen continue with their assertion the North
Dakota judiciary, in violation of the Fourteenth
Amendment to the Constitution of the United States of
America, has deprived Susan Hogen of a life estate and
deprived Marby Hogen of a remainderman’s interest in
real property transferred to them by Rodney Hogen in
February 20, 2014, quit claim deeds.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF ALL PARTIES TO THE PROCEEDING . . ii
PROCEEDINGS DIRECTLY RELATED
TO THIS CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . ix
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS AND
STATUTES AND RULES INVOLVED IN
THIS PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE WRIT. . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDIX

v
Page
Appendix A North Dakota Supreme
Court’s decision in Matter of
Estate of Hogen, 2019 ND
141, 927 N.W.2d . . . . . . . . . . . . . . App. 1
Appendix B Order on Petition for Complete
Settlement and Distribution of
Estate . . . . . . . . . . . . . . . . . . . . . App. 11
Appendix C Order Discharging Personal
Representative and Denying
Rodney Hogen's Declaration
and Petition . . . . . . . . . . . . . . . . App. 22
Appendix D North Dakota Supreme Court’s
decision in Estate of Hogen, 2015
ND 125, 863 N.W.2d 876 . . . . . . App. 43
Appendix E Order on Petition for Delivery
of Possession And Control of
Estate Real Property . . . . . . . . . App. 80
Appendix F Order Denying Petition for
Restraining Personal
Representative . . . . . . . . . . . . . . App. 95
Appendix G Order Bifurcating Issues . . . . . . App. 97
Appendix H Order Denying Personal
Representative's Motion for
Consolidation . . . . . . . . . . . . . . App. 100

vi
Page
Appendix I Order for the Release of Lis
Pendens . . . . . . . . . . . . . . . . . . . App. 103
Appendix J Judgment of the North Dakota
Supreme Court . . . . . . . . . . . . . App. 115
Appendix K North Dakota statutes . . . . . . . App. 117
Appendix L Petition for Order Restraining
Personal Representative. . . . . . App. 135
Appendix M Order for Entry of Second Amended
(On Remand) Order on Petition
for Approval of Final Account,
for Determination of Testacy Status,
and for Settlement of Estate . . App. 147
Appendix N Motion for Entry of Cashmore
Bifurcation Order . . . . . . . . . . . App. 154
Appendix O Petition for Supervised
Administration . . . . . . . . . . . . . App. 158
Appendix P Personal Representative's
Formal Request for Delivery of
Possession and Control of
Estate Real Property . . . . . . . App. 162
Appendix Q Order for Supervised
Administration . . . . . . . . . . . . . App. 169

vii
Page
Appendix R Objection to the Court’s Order
Granting Supervisory
Administration . . . . . . . . . . . . . App. 171
Appendix S Affidavit of Rodney Hogen
Responding to the Petition
for Complete Settlement and
Distribution of the Estate . . . . App. 177
Appendix T Objection to Proceedings . . . . . App. 187
Appendix U Petition for Discharge of
Personal Representative . . . . . App. 193
Appendix V Declaration of Interested Persons
Voiding the Allocation, Partition,
Sale, Encumbrance of Real Property
Once Owned by the Decedent
and
Petition of Interested Persons for
Order Voiding Personal
Representative’s Allocation,
Partition, Sale or Encumbrance
of Real Property Once Owned
by the Decedent [Or Order Confirming
the Declaration of Interested
Persons Voiding the
Personal Representative’s
Transaction(s)]
and
Petition of Interested Persons to

viii
Page
Vacate this Court’s Order of
April 3, 2017 . . . . . . . . . . . . . . . App. 216
Appendix W Objection to Discharge of the
Personal Representative in
Supervised Proceedings . . . . . . App. 269
Appendix X Transcript of Proceedings of
July 22, 2010 . . . . . . . . . . . . . . . App. 291

ix
TABLE OF AUTHORITIES
Page
Cases
Alward v. Borah, 381 Ill. 13,
44 N.E.2d 865 (1942) . . . . . . . . . . . . . . . . . . . . . 29, 33
Boehm v. Long, 172 N.W. 862 (N.D. 1919) . . . . . . . 31

Bordenkircher v. Hayes, 434 U.S. 357,

98 S. Ct. 663, 668, 54 L. Ed. 2d 604 (1978) . . 8, 32, 35
Brigham Oil and Gas, L. P. V. Lario
Oil & Gas Co., 2011 ND 154, 902 N.W.2d 751 . . . . 25

Dent v. West Virginia, 129 U.S. 114, 123,

9 S.Ct. 231, 233, 32 L.Ed. 623 (1889) . . . . . . . . . . . . 7
Dethloff v. Dethloff, 1998 ND 45,
574 N.W.2d 867. . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Estate of Cashmore, 2010 ND 159,
787 N.W.2d 261 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Estate of Hogen, 2015 ND 125,
863 N.W.2d 876 . . . . . . . . . . 1, 8, 9, 14-17, 19, 21, 25
Havilah Real Property Services, LLC v.
VLK, LLC, 108 A.3d 334 (D.C. 2015) . . . . . . . . . . . 31
Hogen v. Hogen, 2019 ND 17,
921 N.W.2d 672 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

x
Page
In re Anderson’s Estate, 34 N.W.2d 413
(N.D. 1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
In re Guardianship and Conservatorship
of D.M.O, 2008 ND 100, 749 N.W.2d 517.. . . . . . . . 30

Logan v. Zimmerman Brush Co., 455 U.S. 422,
102 S. Ct. 1148, 71 L. Ed. 2d 265 (1982) . . . . . . . . . 25
Marbury v. Madison, 5 U.S. 137 (1803) . . . . . . . . . 34
Matter of Estate of Hogen, 2019 ND 141,
927 N.W.2d 474 . . . . . . . . . . . . . . . . . . . . . . . 1, 15, 24

Mullane v. Cent. Hanover Bank & Tr. Co.,

339 U.S. 306, 314, 70 S. Ct. 652, 657,
94 L. Ed. 865 (1950) . . . . . . . . . . . . . . . . . 7, 29, 33, 35

Near v. Minnesota ex rel Olson,
283 U.S. 697 (1931) . . . . . . . . . . . . . . . . . . . . . . . . . 31
Richards v. Jefferson County, Ala., 517 U.S.

793, 116 S. Ct. 1761, 135 L.Ed.2d 76 (1996) . . . . 6, 34

Stop the Beach Renourishment, Inc. v. Fla.
Dep't of Envtl. Prot., 560 U.S. 702, 737,

130 S. Ct. 2592, 2615, 177 L. Ed. 2d 184 (2010) 5, 33

Tulsa Prof'l Collection Servs., Inc. v. Pope,

485 U.S. 478, 487, 108 S. Ct. 1340, 1346,
99 L. Ed. 2d 565 (1988) . . . . . . . . . . . . . . . . . . . . . . . 7

xi
Page

Wolff v. McDonnell, 418 U.S. 539, 558,

94 S.Ct. 2963, 2976, 41 L. Ed. 2d 935 (1974) . . . . . . 7
Statutes and Rules

28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Supreme Court Rule 13.1. . . . . . . . . . . . . . . . . . . . . . 2
N.D.C.C. § 28-05-07. Lis pendens-Effect. . . . . . . . . 19
N.D.C.C. § 28-26-31. Pleadings not made in
good faith. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
N.D.C.C. § 30.1-01-06. (1-201) General
definitions. . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 26-27
N.D.C.C § 30.1-03-01. (1.401). Notice Method and time of giving. . . . . . . . . . . . . . . . . . . .

3

N.D.C.C § 30.1-03-03. (1.403) Pleadings When parties bound by others - Notice. . . . . . . . . . . 3
N.D.C.C. § 30.1-12-01. (3-101) Devolution
of estate at death--Restrictions . . . . . . . . . . . . . . 3, 25
N.D.C.C. § 30.1-17-02. (3-602) Acceptance
of appointment - Consent to jurisdiction. . . . . . . . . 27
N.D.C.C. § 30.1-17-07. (3-607) Order restraining
personal representative. . . . . . . . . . . . . . . . . . . . . . 17

xii
Page
Subsection 2 of N.D.C.C. § 30.1-17-10.
(3-610). Termination of appointment-Voluntary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 16
N.D.C.C. § 30.1-18-03. (3-703) General
duties-Relation and liability to persons
interested in estate-Standing to sue. . . . . . . . . . . . 26
N.D.C.C. § 30.1-18-13. (3-713). Sale,
encumbrance, or transaction involving
conflict of interest--Voidable-Exceptions. . . . . . . . . . . . . . . . . . . 4, 22, 28-29, 32-33
N.D.C.C. § 30.1-18-14. (3-714) Persons
dealing with personal representativeProtection. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19, 32
N.D.C.C. § 30.1-19-03. (3-803).
Limitations on presentation of claims. . . . . . . . . 4, 27
N.D.C.C. § 30.1-20-11. (3-911) Partition for
purpose of distribution. . . . . . . . . . . . . . . . . . . . . 4, 27
Subsection 1 of N.D.C.C. § 30.1-21-01
(3-1001) Formal proceedings
terminating administration-Testate or intestate--Order of general
protection. . . . . . . . . . . . . . . . . 4, 11, 13-14, 16-18, 27
N.D.C.C. § 30.1-21-08. (3-1008)
Subsequent administration - Fee. . . . . . . . . . . . 4, 27

xiii
Page
N.D.C.C. § 32-16-04. Lis pendens required. . . . . . 28
N.D.C.C. § 32-16-23. Part of action continued. . . . 28
N.D.C.C. § 32-16-24. How sales made. . . . . . . . . . . 28
N.D.C.C. § 32-16-28. Compensation when
consent not given.. . . . . . . . . . . . . . . . . . . . . . . . . . . 28
N.D.C.C. § 32-16-30. Value of future estates
settled by court. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
N.D.C.C. § 32-16-35. Interested party may
apply share on purchase price. . . . . . . . . . . . . . . . . 28
Other Authorities
Article 1 of the Articles of Amendment
to the Constitution of the United States . . . . . . . . . 2
First Amendment to the Constitution
of the United States of
America. . . . . . . . . . . . . . . . i, 1, 4, 8, 15, 25, 30-32, 35
Article XIV, § 1, of the Articles of Amendment
to the Constitution of the United States of
America. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 2
Fourteenth Amendment to the
Constitution of the United States of
America. . . . . . . . . . . . . . . . i, iv, 1, 4, 8, 25, 30-32, 35

1
PETITION FOR WRIT OF CERTIORARI
Petitioners, Rodney Hogen, Susan Hogen and
Marby Hogen, respectfully pray that a writ of certiorari
issue to review the judgment of the Supreme Court of
North Dakota that deprives landowners of their
property without due process of law; denies landowners
equal protection of settled law; and punishes Petitioner
Rodney Hogen for activity protected by the First and
Fourteenth Amendment to the Constitution of the
United States of America.
OPINIONS BELOW
All of the opinions of the North Dakota judiciary
that lead to this Petition for Writ of Certiorari trail the
Supreme Court of North Dakota’s remand from its
decision in Estate of Hogen, 2015 ND 125, 863 N.W.2d
876 [Appendix D, pages 43-79], and include the
following:
The May 16, 2019, published opinion of the
Supreme Court of North Dakota is reported in Matter
of Estate of Hogen, 2019 ND 141, 927 N.W.2d 474. The
decision is found at Appendix A, pages 1- 10.
The unreported Order on Petition for Complete
Settlement and Distribution of Estate of the Cass
County District Court dated April 3, 2017, is found at
Appendix B, pages 11-21.
The unreported Order Discharging Personal
Representative and Denying Rodney’s Hogen’s
Declaration and Petition, dated August 22, 2018, is

2
found at Appendix C, pages 22-42.
BASIS FOR JURISDICTION
The Court has jurisdiction under 28 U.S.C. §
1257(a). Pursuant to Supreme Court Rule 13.1, this
petition is filed within 90 days of the judgment of
North Dakota Supreme Court of May 16, 2019.
Appendix A, pages 1-10; Appendix J, page 115.
CONSTITUTIONAL PROVISIONS AND
STATUTES AND RULES INVOLVED
IN THIS PETITION
Article 1 of the Articles of Amendment to the
Constitution of the United States of America states:
Congress shall make no law
respecting an establishment of religion, or
prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the
press; or the right of the people peaceably
to assemble and to petition the
government for a redress of grievances.
Article14, § 1, of the Articles of Amendment to the
Constitution of the United States of America states:
§ 1. All persons born or naturalized in
the United States, and subject to the
jurisdiction thereof, are citizens of the
United States, and of the state wherein
they reside. No state shall make or
enforce any law which shall abridge the

3
privileges or immunities of citizens of the
United States, nor shall any state deprive
any person of life, liberty or property,
without due process of law, nor deny to
any person within its jurisdiction the
equal protection of the laws.
Petitioners assert they have been denied the
protection of North Dakota’s settled law, including the
equal protection of several provisions within North
Dakota’s version of the Uniform Probate Code. The
Petitioners assert they were denied the equal
protection of provisions of the North Dakota Century
Code that follow. Because of the length of the statutory
provisions, the text, of relevant North Dakota Century
Code provisions, is found in the Appendix to this
Petition. The protection of the following provisions of
the North Dakota Century Code provision (hereinafter,
abbreviated “N.D.C.C.”) have been denied the
Petitioners.
N.D.C.C § 30.1-03-01. (1.401). Method and time of
giving. See, Appendix K, pages 119-120.
N.D.C.C § 30.1-03-03. (1.403) Pleadings - When parties
bound by others - Notice. See, Appendix K, pages 120123.
N.D.C.C. § 30.1-12-01. (3-101) Devolution of estate at
death--Restrictions See, Appendix K, page 123.
Subsection 2 of N.D.C.C. § 30.1-17-10. (3-610).
Termination of appointment--Voluntary.
See,
Appendix K, page 125.

4
N.D.C.C. § 30.1-18-13. (3-713). Sale, encumbrance, or
transaction
involving
conflict
of
interest--Voidable--Exceptions.
See, Appendix K,
pages 126-127.
N.D.C.C. § 30.1-19-03. (3-803). Limitations on
presentation of claims. See, Appendix K, pages 128129.
N.D.C.C. § 30.1-20-11. (3-911) Partition for purpose of
distribution. See, Appendix K, pages 129-130.
Subsection 1 of N.D.C.C. § 30.1-21-01 (3-1001) Formal
proceedings terminating administration--Testate or
intestate--Order of general protection. See, Appendix
K, pages 130-131.
N.D.C.C. § 30.1-21-08. (3-1008) Subsequent
administration - Fee. See, Appendix K, pages 131-132.
STATEMENT OF THE CASE
Petitioners Rodney, Susan and Marby Hogen
assert, in violation of rights guaranteed to them under
the Fourteenth Amendment, the North Dakota
judiciary has deprived them of property that Petitioner
Rodney Hogen inherited from his mother and later
transferred, in part, to Petitioners Susan and Marby
Hogen. Rodney Hogen further asserts, in violation of
his right to due process of law, the North Dakota
judiciary has punished him for exercising activities
that are authorized by North Dakota law, and further,
activities protected by the First and Fourteenth
Amendments to the Constitution of the United States

5
of America.
The first two issues presented in this Petition
carry on the theme asserted by Petitioners Susan
Hogen and Marby Hogen in United States Supreme
Court Docket No. 18-1440. The first two (2) issues
stem from Justice Kennedy’s statements made in Stop

the Beach Renourishment, Inc. v. Fla. Dep't of Envtl.
Prot., 560 U.S. 702, 737, 130 S. Ct. 2592, 2615, 177 L.
Ed. 2d 184 (2010) [a decision where a majority of the
justices accepted Justice Scalia’s proposition that it is
appropriate to “set(..) aside judicial decisions that take
private property”; id., page 720]:
The Court would be on strong
footing in ruling that a judicial decision
that eliminates or substantially changes
established property rights, which are a
legitimate expectation of the owner, is
“arbitrary or irrational” under the Due
Process Clause. Lingle, 544 U.S., at 542,
125 S.Ct. 2074; see id., at 548–549, 125
S.Ct. 2074 (KENNEDY, J., concurring);
see also Perry v. Sindermann, 408 U.S.
593, 601, 92 S.Ct. 2694, 33 L.Ed.2d 570
(1972) ( “ ‘[P]roperty’ ” interests protected
by the Due Process Clauses are those
“that are secured by ‘existing rules or
understandings' ” (quoting Board of
Regents of State Colleges v. Roth, 408
U.S. 564, 577, 92 S.Ct. 2701, 33 L.Ed.2d
548 (1972))). Thus, without a judicial
takings doctrine, the Due Process Clause
would likely prevent a State from doing

6
“by judicial decree what the Takings
Clause forbids it to do by legislative fiat.”
Ante, at 2601.
The third issue presented by the Petitioners
Susan and Marby Hogen, embraces federal rights
addressed by this Court in Richards v. Jefferson
County, Ala., 517 U.S. 793, 116 S. Ct. 1761, 135
L.Ed.2d 76 (1996), holding that a stranger to a judicial
proceeding, whose interests are not adequately
represented by a party to the judicial proceeding,
cannot be bound by such proceedings. The Supreme
Court of North Dakota, in its opinion below, bound
Petitioners Susan Hogen and Marby Hogen to Steven
C. Hogen’s sales of all of their vested interest in lands
without prior notice and without a meaningful
opportunity to voice their positions concerning the sale.
Despite having received an interest in all the subject
real property, the North Dakota judiciary did not
recognize Susan and Marby Hogen as interested
persons who should have a voice in the sale of their
lands by a court appointed personal representative.
Appendix A, pages 3-5 (North Dakota Supreme Court);
Appendix C, pages 24-26; 37-38 (North Dakota District
Court, the trial court).
The first three (3) of Petitioners’ stated issues
also stem from Petitioners’ belief that the Fourteenth
Amendment has ensured them “...notice reasonably
calculated, under all the circumstances, to apprise” the
Petitioners that they could be deprived of their income
and interest in lands by a court empowered personal
representative without providing Petitioners with a
meaningful opportunity, in a judicial proceeding, to

7
present their objections to the deprivation of their
property. See, Mullane v. Cent. Hanover Bank & Tr.
Co., 339 U.S. 306, 314, 70 S. Ct. 652, 657, 94 L. Ed. 865
(1950).
Petitioners assert that the North Dakota
judiciary violated the Petitioners’ due process rights
when the North Dakota judiciary empowered Steven C.
Hogen, as a personal representative, with arbitrary
powers – powers that exceed his statutory granted
authority as a personal representative – and
sanctioned Steven C. Hogen’s acts that deprived the
Petitioners of their vested property. When presenting
the first three (3) of Petitioners’ stated issues, the
Petitioners continue with their belief that this Court
will protect them from the arbitrary actions of the
court empowered personal representative because
“[t]he touchstone of due process is protection of the
individual against arbitrary action of government.”
See, Wolff v. McDonnell, 418 U.S. 539, 558, 94 S. Ct.
2963, 2976, 41 L. Ed. 2d 935 (1974), citing Dent v.
West Virginia, 129 U.S. 114, 123, 9 S.Ct. 231, 233, 32
L.Ed. 623 (1889).” The unprecedented empowerment
of the personal representative by the North Dakota
judiciary, allowing Steven C. Hogen to exercise powers
denied by statute, constitutes state action that triggers
the protection of the Fourteenth Amendment to the
Petitioners. The North Dakota courts have been “...
intimately involved throughout, and without that
involvement ...” the Petitioners would not had been
deprived of their property. Tulsa Prof'l Collection
Servs., Inc. v. Pope, 485 U.S. 478, 487, 108 S. Ct. 1340,
1346, 99 L. Ed. 2d 565 (1988).

8
The fourth issue, presented in this Petition,
involves the judicial sanction imposed upon Petitioner
Rodney Hogen requiring him to pay all of Steven C.
Hogen’s attorney fees subsequent to the 2015 decision
of Estate of Hogen, 2015 ND 125, 863 N.W.2d 876.
Appendix D, page 43. Claiming the probate court acted
within the scope of its inherent powers when
burdening Rodney Hogen with all of Steven’s postremand attorney fees and its act was consistent with
N.D.C.C. § 28-26-31 [Appendix K, pages 118], the
North Dakota judiciary allowed Rodney Hogen to be
punished for doing what North Dakota law clearly
allows him to do. The sanction imposed upon Rodney
Hogen, under claimed inherent powers of the District
Court, punishes Rodney Hogen for activities that are
protected by the First and Fourteenth Amendments to
Constitution of the United States of America. The
sanction violated Rodney Hogen’s right of free speech
and the right to petition the government for the
redress of his grievance. The sanction violated
activities protected by the Fourteenth Amendment,
including Rodney Hogen’s right to alienate his
inherited real property. Rodney Hogen asserts the
judicially imposed sanction deprives him of Due
Process of Law guaranteed to him by the Fourteenth
Amendment. As this Court stated, in Bordenkircher v.
Hayes, 434 U.S. 357, 363, 98 S. Ct. 663, 668, 54 L. Ed.
2d 604 (1978):
To punish a person because he has
done what the law plainly allows him to
do is a due process violation of the most
basic sort, see North Carolina v. Pearce,
supra, 395 U.S., at 738, 89 S.Ct., at 2082

9
(opinion of Black, J.), and for an agent of
the State to pursue a course of action
whose objective is to penalize a person's
reliance on his legal rights is “patently
unconstitutional.” Chaffin v.
Stynchcombe, supra, 412 U.S., at 32–33,
n. 20, 93 S.Ct., at 1986. See United States
v. Jackson, 390 U.S. 570, 88 S.Ct. 1209,
20 L.Ed.2d 138. . . .
To fully understand why the Petitioners believe
the North Dakota courts have deprived them of their
property in violation of their constitutional right to due
process of law, one needs an understanding of the
background concerning the probate of Arline H.
Hogen’s Last Will and Testament. One also needs
understanding of the North Dakota settled probate law
denied to Petitioners.
Pertinent Background leading to
Supreme Court of North Dakota’s
2015 decision: Estate of Hogen, supra.
Arline Hogen (“Arline”) died testate on March
23, 2007, survived by her two sons, Rodney Hogen
(“Rodney”) and Steven C. Hogen (Steven”). Under
Arline’s probated Will, Rodney and Steven are equal
devisees. Appendix D, page 45.
At the time of her death Arline had owned an
undivided interest in a Cass County, North Dakota
farmstead, and an undivided interest in farmlands
located in Cass County and Barnes County, North
Dakota. At the time of her death, most of Arline’s

10
undivided interest in the farmlands were subject to
mortgages of record. During her lifetime, Arline
allowed her lands in Barnes County, and one quarter
in Cass County, to be mortgaged to benefit Rodney’s
farming operations.
During her lifetime, Arline’s interest in one
other quarter of land in Cass County was mortgaged to
benefit a business created by both Steven and Rodney.
Because of favorable interest rates afforded to Rodney
who farmed the lands [Steven did not farm], Rodney
was a mortgagor on the mortgage benefitting their
common business interest. Steven, though, is obligated
to Rodney to pay one-half of this mortgage
indebtedness.
Steven was appointed personal representative of
his mother’s estate in April, 2007. On May 30, 2007,
Steven filed his Affidavit of Publication of his Notice to
Creditors. No other court activity occurred until March
19, 2010 – almost three (3) years after Arline’s death.
On March 19, 2010,
Steven, as personal
representative, filed: (1) a tardy Inventory and
Appraisement; (2) a Final Account and Report; and (3)
a Petition for Approval of Final Account,
Determination of Testacy and for Settlement of Estate.
Steven’s inventory and final account showed,
that as of March 19, 2010, all creditors and
administration costs were paid in full, with money in
the estate’s account to be distributed. Steven’s 2010
inventory and final account also revealed that Steven
claimed Rodney owed the probate estate $97,536.71 for
his farming of Arline’s lands from 2003 through 2009.

11
Within his petition seeking approval of his final
accounting, Steven prayed for an unequal distribution
of land due to his claim the Rodney owed the probate
estate said $97,536.51 through 2009. Within this
petition, Steven also plead:
14.
This Petition for Approval of Final
Account, for Determination of Testacy
Status and for Settlement of Estate is
made and filed by petitioner under
N.D.C.C. § 30.1-21-01, in formal
proceedings to terminate administration
of the estate, in lieu of the filing of a
sworn statement closing the estate under
N.D.C.C. § 30.1-21-03.
Rodney, responding to Steven’s claims made
within said documents, objected on procedural
grounds, and generally denied liability to his mother
and her probate estate. Rodney further sought: (a)
removal of Steven as personal representative and his
legal counsel; (2) supervised administration, and (3)
either an equal distribution of land, or partition.
Appendix B, page 46.
On July 22, 2010, the District Court entertained
arguments to establish the proper procedure to
determine Steven’s claimed “right of retainer”, under
N.D.C.C. § 30.1-20-03, against Rodney. In that
hearing, the District Court announced it would “... hear
the evidence and make the determination. And once
that’s done the Estate will be distributed accordingly
and this case will be over.” Appendix X, pages 291-292.

12
On August 5, 2010, the District Court
determined Steven pleadings were sufficient to assert
a right to retainer against Rodney, and ordered Rodney
to submit his defenses and denials to Steven’s claims.
District Court Docket Entry #73. Obeying the Order,
Rodney filed his Answer Arising Out of Order On
Procedure as to the claimed retainer on September 1,
2010. District Court Docket Entry #77.
In February, 2011, Rodney sought summary
judgment claiming that Steven’s pre-death claims were
barred, and that Steven did not show an
administrative need nor demand for post-death rents.
District Court Docket Entry #96. When denying
summary judgment concerning post-death crops and
farm rentals, the District Court accepted Steven’s
argument that Rodney had no ownership rights to the
farmland until the District Court approves a
distribution to him. District Court Docket Entry #129.
On February 15, 2013, Steven, without seeking
court permission, filed an amended final accounting,
and an amended petition seeking distribution to him of
66.218712% and to Rodney 33.781288% of the interest
in the real estate once owned Arline Hogen at the time
of her death. Steven had claimed a right to retainer
against Rodney in the amount of $247,261.04
[originally $97,536.51]. District Court Docket Entry
#197 and Entry #198. Steven’s amended petition again
stated that one of its purposes was “... to terminate
administration of the estate, in lieu of the filing of a
sworn statement closing the estate under N.D.C.C. §
30.1-21-03.” Appendix V, page 220.

13
Trial upon Steven’s claimed retainer began in
March of 2013 and concluded, after sporadic five days
of trial, on June 27, 2013. The District Court issued its
Order on Petition for Approval of Final Account, for
Determination of Testacy Status, and Settlement of
Estate under N.D.C.C. § 30.1-21-01 on October 24,
2013. The District Court issued its Amended Order on
Petition for Approval of Final Account, for
Determination of Testacy Status, and for Settlement of
Estate on December 11, 2013. Appendix V, page 221.
The District Court determined Rodney owed the Estate
$123,387.44 for crop years 2007 through 2013,
inclusive. The District Court did not credit Rodney
with any payment that Rodney paid directly to Steven
[as an individual], nor did it credit Rodney with any
payment he made upon the mortgages upon the lands
when his mother died, including the mortgage that
Steven, too, shared an obligation to pay. Rodney’s
petition for supervised administration was denied.
District Court Docket Entry #436.
On March 6, 2014, the District Court approved
Steven’s personal representative fees in the amount of
$27,500. The District Court also approved a total of
$333,272.23 in attorney fees and costs, incurred by
Steven, to be paid out of the estate. In another March
6, 2014, Order, the probate court approved Steven’s
“Second Amended Final Report”, and determined
Rodney and Steven were each 50% distributees of their
mother’s estate. The probate court determined its
March 6, 2014, Order was a “final Judgment” and
“ends the action” for matters expressed therein.
Appendix V, pages 218-219. Under Steven’s petition(s)
to settle the estate, under the provisions of N.D.C.C. §

14
30.1-21-01, the real estate [owned by Arline Hogen at
the time of death] and the claimed “right of retainer”
against Rodney were listed as assets to be distributed.
In its concluding orders of 2013 and 2014, the
District Court did not reserve jurisdiction to sell or
partition the lands that devolved upon Rodney and
Steven, equally, at the time of their mother’s death
through her probated will. Nor did the District Court
reserve jurisdiction to lease the farm lands within the
concluding orders.
On February 20, 2014, Rodney quit claimed all
of his inherited real property to his daughter, Marby
Hogen (“Marby”), and reserved a life estate unto
himself and his wife, Susan Hogen (“Susan”).
Rodney then appealed the adverse rulings
against him, including the amounts awarded for
personal representative fees and attorney fees, to the
Supreme Court of North Dakota. Rodney’s 2014 appeal
resulted in the decision of Estate of Hogen, supra., a
decision affirming all of the District Court’s orders
except as to the amount of “right to retainer” against
Rodney.
In ¶1 of its 2015 decision of Estate of Hogen, the
Supreme Court of North Dakota said the appeal was
“... from an order approving a final accounting and
settlement in the probate of the estate of Arline
Hogen.” In ¶25 of this decision, the Supreme Court of
North Dakota determined, “[t]he personal
representative’s power or control over the decedent’s
property or estate during administration may be

15
exercised without notice, hearing, or an order and may
continue until termination of the personal
representative’s appointment, or execution of an
instrument or deed of distribution transferring the
assets to the distributee.” Appendix D, pages 43-44,
65-66.
Pertinent Background leading to
Supreme Court of North Dakota’s 2019 decision:
Matter of Estate of Hogen, supra.
A detailed procedural history of most of the
pertinent probate proceedings leading to the Supreme
of North Dakota’s 2019 decision is found in ¶ 6 through
¶44, inclusive, of the Petitioner’s Declaration of
Interested Persons Voiding the Allocation, Partition,
Sale, Encumbrance of Real Property Once Owned by
the Decedent. Appendix V, pages 219-241. To
establish why the Petitioners assert the North Dakota
judiciary has deprived them of property, and/or First
Amendment liberty rights, in violation of their
constitutional right to due process of law, the
Petitioners find it necessary to highlight the
underlying factual scenario, and their belief as to what
statutory probate rights and process were denied them
after the remand of Estate of Hogen, supra.
In 2014 and 2015, while Rodney’s first appeal
was pending, Rodney farmed the Cass County lands
but not the Barnes County lands. Since 2010, Steven
as personal representative, received all Barnes County
rentals for lands once owned by Arline Hogen. In 2014,
Rodney’s net farm “profit” from lands was $2,916.00.
In 2015, Rodney’s net farm “profit” was $25,442.00.

16
Rodney’s net farm” profit” stemmed from all lands
inherited through both of his parents, not just from his
mother – and from his own labor. Appendix S, pages
183-185. Rodney’s net profit farming, for pertinent
post remand years [2014 through 2016], did not
include any portion of Barnes county farm rentals that
could be traced through his inheritance from Arline
Hogen -- as Steven received these rents as claimed
personal representative. For these pertinent years,
Steven did not make any principal or interest payment
on any of the mortgages on the land. Any payment to
the mortgagees were made by Rodney.
On July 14, 2014, after its decision in Estate of
Hogen, supra., was final, the Supreme Court remanded
the case to the District Court for what appeared to be
a single issue: “to recalculate the retainer after
considering the effect of the Barnes County
conservation program on the cash rent for Barnes
County land..” See, ¶35 of Estate of Hogen, supra.
Appendix D, page 70.
Based upon the Supreme Court’s determination
the appeal was from a “final accounting and
settlement”, Rodney believed Steven’s powers over his
inherited lands had terminated as a matter of law.
Use of the word “settlement”, in reference to decedent’s
estates, is defined so it “includes the full process of
administration, distribution, and closing.” N.D.C.C. §
30.1-01-06 (49); Appendix K, page 118-119. Under
N.D.C.C. § 30.1-17-10, “[a]n order closing an estate as
provided in section 30.1-21-01 or 30.1-21-02 terminates
an appointment of a personal representative.”
Appendix K, page 125.

17
The Supreme Court’s determination in the
appeal, Estate of Hogen, supra., was from a “final
accounting” also led to Rodney’s belief that Steven’s
powers as personal representative had terminated.
Rodney’s belief or post appeal position, was consistent
with the Supreme Court of North Dakota’s decision in
Estate of Cashmore, 2010 ND 159, 787 N.W.2d 261,
determining in ¶14, thereof, “[o]nce a final judgment or
order has been entered approving a final accounting
and distribution under N.D.C.C. § 30.1-21-01(1), the
estate proceedings are concluded, and the parties are
not authorized to file a petition to approve an amended
final accounting under the statute.”
During the hearing to determine the amount of
retainer, as required by the Supreme Court of North
Dakota’s order for remand, Rodney realized that
neither Steven nor the District Court shared his view
that personal representative’s powers had terminated
by Steven’s prior, approved final account and the
District Court’s order of Rodney and Steven were each
50% distributees. On September 15, 2015, due to that
realization, Rodney filed his Petition for Order
Restraining Personal Representative as authorized
under N.D.C.C. § 30.1-17-07. Appendix L, pages 135146; statute at Appendix K, pages 124-125.
Rodney’s September 15, 2015, petition prompted
Steven to move for a “Cashmore” bifurcation order on
November 12, 2015 [Appendix N, pages 154-157],
which was resisted by Rodney. Because of Rodney’s
response, Steven asked for a delay of the time his
motion would be heard. On January 4, 2016 [during
the time of this delay], Steven petitioned for supervised

18
administration of the probate. Appendix O, page 158161. On January 5, 2016, Steven petitioned for an
order for the delivery of possession and control of all
estate real property to him as personal representative.
Appendix P, pages 162-168.
Steven’s petition for supervised administration
was granted by the District on January 11, 2016,
without affording Rodney an opportunity to be heard.
Appendix Q, pages 169-170. Steven did not provide
any form of notice to either Marby or Susan of this
petition, nor any other petition or motion made by him,
until Marby and Susan later appeared in the probate
proceedings, as interested persons, on August 2, 2018.
On January 5, 2016, Steven petitioned for an
order to establish his possession of the Cass County
lands – the first time Steven sought control over the
Cass County lands since the District Court’s 2013-2014
concluding orders. Appendix P, page 162-168. Again,
Steven had been taking the tenant’s rents from the
Barnes County lands, attributable to the devise of
Arline, since 2010. Rodney resisted Steven’s petition
by repeating his post appeal position that the personal
representative’s powers terminated upon the entry of
the 2013 and 2014 Order(s) issued under N.D.C.C. §
30.1-21-01. Appendix R, pages 171-176.
Following arguments on the various outstanding
motions [occurring on February 2, 2016] and Rodney’s
objection to the order of supervised administration, the
District Court issued three (3) orders: (1) Order on
Petition for Delivery of Possession and Control of
Estate Real Property dated February 2, 2016

19
[Appendix E, pages 80-94]; (2) Order Denying Petition
for Restraining Personal Representative of February 4,
2016 [Appendix F, pages 95-96]; and (3) Order
Bifurcating Issues of February 6, 2016 [District Docket
Entry #639]. When entering these three (3) orders, the
District Court rejected Rodney’s positions concerning
the termination of the personal representative’s powers
and the finality of the prior 2013 and 2014 Order(s)
that were affirmed by the Supreme Court of North
Dakota in Estate of Hogen, supra.
To protect Rodney’s interest in the lands Rodney
had inherited from his mother, Rodney’s attorneys [the
Garaas Law Firm] filed a Lis Pendens for both Cass
County and Barnes County lands in early February,
2016. The Lis Pendens filings were necessary to
prevent third parties from claiming they had acted in
“good faith” when dealing with Steven, as personal
representative, in any transaction concerning the
inherited lands. See, N.D.C.C. § 30.1-18-14. Appendix
K, pages 127-128. In North Dakota, a lis pendens is
authorized in any “civil or criminal action in a court
affecting the title to real property”. See, N.D.C.C. § 2805-07. Appendix K, pages 117-118.
The next activity in the District Court involved
Steven’s November, 2016, motion to consolidate the
probate proceedings with the trust proceedings
involving the Curtiss A. Hogen testamentary trust.
Rodney resisted consolidation and the District Court
denied Steven’s motion on December 12, 2016.
On January 27, 2017, Steven filed his Petition
for Complete Settlement and Distribution of the

20
Estate. Steven asked the District Court to determine
and order, without benefit of a proper pleading or trial
in the probate proceedings, that Rodney owed the
Estate an additional $55,379.63,together with interest
thereon, for crop years 2014, 2015, and 2016. Steven
requested an order directing Rodney to release his two
Lis Pendens filed in Cass County and Barnes County.
Steven also sought an order authorizing the sale of real
property and distribution of the Estate, coupled with
an order determining any capital gain taxes to be paid
on the land he sells to be paid on his allocated
ownership of the sold land; and other relief. District
Court Docket Entry #668.
Rodney responded to Steven’s petition by
repeating his post-appeal position concerning the effect
of the District Court’s concluding Order(s) of 2013 and
2014. Appendix T, pages 187-192; see also, Appendix
V, pages 216-268. Rodney also disputed Steven’s
contention that his proposed allocation of lands was
based upon an Steven and Rodney’s agreement as
revealed in Rodney’s testimony in trust proceedings
involving the Curtiss A. Hogen testamentary trust.
Rodney submitted portions of the transcript of his
testimony clearly showing Rodney had testified the two
of them had come close to an agreement but, “It never
happened.” Appendix V, pages 233-235.
When presenting his defenses to Steven’s
position, Rodney submitted evidence of his post 2014
and 2015 income from his farming operations, as well
as history of his payments on mortgages. Rodney’s
position was it would be inequitable to impose a rental
obligation upon Rodney for years 2014 through 2016

21
greater than what the land produces in income.
Rodney’s claimed it would be inequitable to not give
him credit, against any imposed rental obligation, for
the mortgage payments made by him. Appendix V,
pages 243-246.
On April 3, 2017, the District Court issued its
Order on Petition for Complete Settlement and
Distribution of Estate. Appendix B, pages 11-21. This
order authorized Steven to allocate and sell any of the
subject lands to pay all mortgages, and previously
approved attorney fees and probate court expenses.
The Order released Rodney’s two (2) Lis Pendens. The
Order imposed a rental liability against Rodney for
2014 through 2016 crop years in the principal amount
$55,379.73, together with accruing interest thereon at
the rate of six percent (6%) per annum. Appendix B,
pages 17-21.
In its April 3, 2017 Order, the District Court
awarded to Steven, and against Rodney, all of Steven’s
“attorney fees and costs following the remand”of Estate
of Hogen, supra. The order concerning attorney fees
was made by the District Court without any prior
motion or hearing afforded to Rodney as to the
appropriateness of the order. The District Court
required Rodney Hogen to pay all post remand
attorney fees incurred by Steven. The District Court
reasoned “Rodney Hogen’s continued objections to and
obstruction of the probate process and actions in
convoluting the title to the real property have been
unreasonable and unjustified. Of particular note is the
recording a lis pendens in a direct violation of this
Court’s February 2, 2016 Order.” Appendix B, pages

22
19-20.
On July 23, 2018, Steven filed his Petition for
Discharge of Personal Representative giving notice to
the District Court and Rodney that Steven had sold all
of lands Steven had allocated to Rodney. Appendix U,
pages 193-215. Steven requested, for post remand
attorney fees in the estate proceedings, $200,000.00
attorney fees to be paid through Rodney’s allocated
property. Part of these attorney fees were his legal
fees and expenses incurred by Steven in Susan and
Marby’s Barnes County quiet title action. Steven
claimed his legal fees of $61,129.26, incurred in the
quiet title action, were “attributable to the
unjustifiable conduct of Rodney” without specifying
what was Rodney’s “unjustifiable conduct” in the
action(s) in which he was not a party. Appendix U,
page 208. Steven proposed another $23,000.00 to be
withheld from Rodney until final resolution of all
appeals in the probate matter and Barnes County quiet
title action. Appendix U, page 208.
On August 2, 2018, Petitioners Rodney, Susan,
and Marby exercised their statutory right [N.D.C.C. §
30.1-18-13; Appendix K, pages 126-127], as interested
persons, to void Steven’s allocation, deeds, sale and
other transaction relating to the subject lands.
Appendix V, pages 216-268. In the same document,
Petitioners sought a court order confirming Steven’s
transaction relating to the lands were void.
Additionally, the Petitioners sought a court order to
vacate the District Court’s April 3, 2017, order
claiming the District Court acted in excess of its
jurisdiction, or without jurisdiction, when entering the

23
order. The Petitioners obtained a hearing date of
September 6, 2018, and gave notice to Steven and to
the purchasers, identified by Steven, of the land.
Upon Steven’s August 8, 2018, motion, the
hearing on the Petitioners’ August 2, 2018, petition
was consolidated with Steven’s petition for discharge
and expedited to August 10, 2018. On the same day –
August 8, 2018 – Rodney, Susan and Marby filed their
objection to Steven’s discharge, citing his disloyalty to
Arline’s Will and his failure to distribute the probate
equally at date of distribution values, among other
reasons. Appendix W, pages 269-290.
On August 22, 2018, the District Court issued it
Order Discharging Personal Representative and
Denying Rodney Hogen’s Declaration and Petition.
Appendix C, pages 22-42. Within this order, the
District Court determined Susan and Marby were “not
interested persons in the estate” and had no
“standing” to void Steven’s sale or allocation of the
land, because “the Estate’s interest in real property
referred to in the Barnes County Judgment has been
transferred to third parties other than Rodney Hogen.”
Despite Rodney’s 2014 conveyances to Marby and
Susan that preceded Steven’s transfers to the third
parties, the District Court stated, “The Court finds that
Susan and Marby have no interest in the Estate
property.” Appendix C, page 25.
As to Marby and Susan’s assertion they were
denied due process of law in the probate proceedings,
the District Court determined, “But even if Susan and
Marby were arguably interested persons, they have

24
received whatever process was due to them by choosing
to start a quiet-title action in Barnes County.”
Appendix C, page 25.
As to Rodney, the District Court rejected all of
Rodney’s post-remand positions, approved Steven’s
accounting and distribution, and ordered Rodney to
pay Steven his requested “total of $200,000.00 in
attorney fees that were expended following the remand
from the supreme court.” Included in the total of
$200,000.00 is Steven’s total attorney fee of
$61,129.726 incurred by Steven [individually or as
personal representative or trustee] in the quiet action
initiated by Susan and Marby in Barnes County
District Court, and $10,788.59 in two (2) separate
actions to evict a tenant. Rodney was not a party to
the quieting title action, or the eviction actions.
Appendix C, pages 36-42.
To chill Rodney’s appellate rights, the District
Court ordered $23,000 to be withheld from Rodney’s
share of the estate to pay Steven’s attorney fees and
costs arising out the District Court’s probate orders, or
Steven’s attorney fees relating to the appeal in the
Barnes County quieting title action. Appendix C, page
42.
Petitioners timely appealed to the Supreme
Court of North Dakota, resulting in the May 16, 2019,
decision of Matter of Estate of Hogen, supra. Citing
Hogen v. Hogen, 2019 ND 17, 921 N.W.2d 672 [holding
in ¶16 thereof, “...this record does not reflect an order
closing the Estate or discharging Steven...”]; the
Supreme Court of North Dakota rejected the

25
Petitioners’ position Steven’s powers had terminated
with the 2013-2014 concluding orders – orders
judicially declared to be a “final accounting and
settlement” in ¶1 Estate of Hogen, supra.¶1, Appendix
D, pages 43-44.
Alluding to the Rodney’s “litigation strategy on
remand”, the Supreme Court of North Dakota
affirmed the $200,000.00 attorney fees imposed against
Rodney, thereby rejecting Rodney’s position the lower
court punished him for exercising liberty rights
guaranteed to him under the First and Fourteenth
Amendments. Appendix A, page 10.
Settled Probate Law Denied Petitioners
As stated in Logan v. Zimmerman Brush Co.,
455 U.S. 422, 430, 102 S. Ct. 1148, 1155, 71 L. Ed. 2d
265 (1982), “[t]he hallmark of property, this Court has
emphasized, is an individual entitlement grounded in
state law, which cannot be removed except ‘for cause.”’
Since the date of Arline Hogen’s 2007 death, Steven
and Rodney obtained, through devolvement under her
probated Will, ownership of real property. See,
N.D.C.C. § 30.1-12-01. Appendix K, page 123. What
Rodney and Steven inherited was an ownership
interest and not an expectancy. Brigham Oil and Gas,
L. P. V. Lario Oil & Gas Co., 2011 ND 154, ¶14, 902
N.W.2d 751.
Through 2014 quit claim deeds, Rodney
transferred part of his inherited real estate interests to
his wife, Susan, and daughter, Marby. As owners of a
life estate and a remainder respectively, Susan and

26
Marby are each an “interested person” in Arline
Hogen’s estate because each has “ a property right in or
claim against a trust estate or the estate of a
decedent”. See, N.D.C.C. § 30.1-01-06 (26). Appendix
K, page 118-119.
Rodney, Susan and Marby recognize their real
estate interests can be removed for “cause”, but
respectfully submit the removal must be done under
procedures that are consistent with their right to Due
Process of Law. A personal representative has broad
statutory powers to fulfill his fiduciary “duty to settle
and distribute the estate of the decedent in accordance
with the terms of any probated and effective will”. See,
N.D.C.C. § 30.1-18-03(1). Appendix K, page 126.
Although a personal representative has broad powers
to fulfill his fiduciary duties, the North Dakota
judiciary cannot empower, nor authorize, a personal
representative to act in a way that conflicts with the
mode of exercising his powers as prescribed by statute.
As stated in Syllabus 2 of In re Anderson’s Estate, 34
N.W.2d 413 (N.D. 1948), “[t]he county court must have
jurisdiction not only of the parties and the subject
matter but must also substantially follow the statute
in the exercise of its powers to render validity to its
decrees.” The Petitioners respectfully submit when
their property has been taken for probate
administration purposes, without adherence to
protections afforded to them by statute, they have been
deprived of property without due process of law.
The Petitioners, in their quest to preserve their
vested real property interests, have been denied
several statutory protections afforded to them to guard

27
against the broad powers of a personal representative.
For example, North Dakota’s non-claim statute
[N.D.C.C. § 30.1-19-03; Appendix K, pages 128-129]
acts as bar to untimely claims and the protection
extends to “heirs and devisees”. “Claims”, as defined in
N.D.C.C. § 30.1-01-06(7) [Appendix K, pages 118-119],
include the “expenses of administration” yet the lower
courts allowed all of Steven’s requested attorney fees
be paid out of the Petitioners’ land interest without the
necessary claim procedure.
The finality of orders that approved “a final
account and settlement” made under N.D.C.C. § 30.121-01 [Appendix K, pages 130-131], should have
resulted in the termination of Steven’s powers under
N.D.C.C. § 30.1-17-02 [Appendix K, page 124]. Due to
shifting sands of judicial thought, a judicially
determined “final accounting” and a judicially
determined “settlement” became neither “final”; nor a
“settlement” [See, N.D.C.C. § 30.1-01-06(49), Appendix
K, pages 118-119]. The shifting sands of judicial
thought deprived the Petitioners of vested property
rights and the statutory protections that places
limitations upon subsequent administration. See,
N.D.C.C. § 30.1-21-08. Appendix K, pages 131-132.
The District Court acted inconsistently with
N.D.C.C. § 30.1-20-11 [Appendix K, pages 129-130]
when it allowed Steven to “allocate the estate real
property.” Appendix B, page 18. Allowing Steven to
“allocate” lands is the equivalent of a partition which
is a power denied to personal representatives by
N.D.C.C. § 30.1-20-11.
Because Steven was
empowered to allocate, rather than seek a partition

28
action as required by statute, the Petitioners were
denied the protection of statutory substantive rights to
protect their ownership interest in the lands. The
Petitioners were denied the protection of a Lis Pendens
[N.D.C.C. § 32-16-04; Appendix K, page 132]; a
contemporaneous valuation and payment of life estates
and future interests [N.D.C.C. § 32-16-28 and N.D.C.C.
§ 32-16-30; Appendix K, pages 133-134]; a public sale
in which the Petitioners could participate and apply
their determined interests towards the purchase price
[N.D.C.C. § 32-16-24 (Appendix K, page 133) and
N.D.C.C. § 32-16-35 (Appendix K, page 134)], a trial as
to all factual claims [N.D.C.C. § 32-16-23 (Appendix K,
page 132], and other substantive rights enjoyed by
parties to a partition action.
The Petitioner were denied the equal protection
of N.D.C.C. § 30.1-18-13 [Appendix K, pages 126-127],
a statutory provision that empowers any “person
interested in the estate” to void “any transaction which
is “affected by a substantial conflict of interest” of a
personal representative. This statutory right vested
with Marby and Susan, in 2014, when they received an
ownership interest in lands from Rodney’s quit claim
deed(s) to them. This statutory right, stemming from
their ownership of lands, cannot be removed without
“cause.” Steven’s allocation favoring himself, and sales
to others under terms favoring himself, is not “cause”
for the removal of the statutory protection that
authorizes them to void such acts. Steven’s allocation
of lands, or sales, under terms favoring only Steven
and his attorneys, are the reasons all interested
person(s) are statutorily empowered with voiding
powers. It is truly irrational, and a denial of due

29
process of law, for North Dakota’s courts to deny
Marby and Susan the protections of the North Dakota
statute.
It is also irrational for the District Court
[probate court] to conclude that Susan and Marby
“have received whatever process was due to them by
choosing to start a quiet-title action in Barnes County.”
Appendix C, page 25. Due process is not a remedy to be
chosen, but rather a constitutional right guaranteed to
Marby and Susan in every judicial proceeding in which
their property rights could be affected. Before the
probate court, or its empowered personal
representative, could deprive them of their ownership
interest in lands, they were entitled to notice and a
meaningful opportunity to be heard as to their defenses
to the deprivation. See, Mullane v. Cent. Hanover
Bank & Tr. Co., supra., and Alward v. Borah, 381 Ill.
13, 44 N.E.2d 865 (1942).
Rodney, too, was denied the equal protection of
N.D.C.C. § 30.1-18-13 when the District Court limited
the scope of the statute to “sales” and the scope of what
was a “substantial conflict of interest” to a sale by
Steven “ to himself, his spouse, agent, attorney, or any
entity in which he has an interest.” Steven clearly has
a conflict with his assumed fiduciary duties to
distribute property according to his mother’s Will
[50/50 between the two (2) brothers] when he allocates
lands to himself over Rodney’s objection. Rodney was
deprived of property, and due process of law when his
voiding powers, clearly granted to him in N.D.C.C. §
30.1-18-13 [Appendix K, pages 126-127], was denied
him for Steven’s transactions that conflict with

30
Steven’s duties to be loyal to their mother’s Will.
Sanction of attorney fees against Rodney was
punishment for exercising First Amendment Rights
The District Court’s “inherent” powers would not
justify the punishment imposed upon Rodney when it
required him to pay all post-remand attorney fees
incurred by Steven. North Dakota generally follows
the “American Rule” requiring each litigant to pay his
own attorney fee. In re Guardianship and
Conservatorship of D.M.O, 2008 ND 100, 749 N.W.2d
517. In North Dakota, a District Court has inherent
powers to award attorney fees to a party as a sanction
for a litigant’s misconduct, but such sanction must be
“reasonably proportionate to the misconduct.” Dethloff
v. Dethloff, 1998 ND 45, ¶16, 574 N.W.2d 867. In this
case, Rodney was required to pay all of Steven’s postremand attorney fees, including fees in cases where
Rodney was not a party, without any judicial analysis
as to what was proportionate to the claimed
misconduct.
In this case, the District Court did not make a
factual finding that any of Rodney’s post-remand
positions were frivolous, untrue, or not made in good
faith. Rather, Rodney’s claimed “misconduct” was his
“continued objections to and obstruction of the probate
process and his actions in convoluting the title to the
real property” by his “recording a lis pendens”.
Appendix B, page 19-20.
Rodney submits that which the District Court
claims is “misconduct” is constitutionally protected

31
activity under the First and Fourteenth Amendments
to the Constitution of the United States.
Since his mother’s death, Rodney enjoyed a
vested right to alienate his inherited real property – a
right protected by the Fourteenth Amendment to the
Constitution of the United States of America. Rodney’s
transfer of land [apparently “convoluting the title]
cannot justify the sanction imposed upon Rodney. A lis
pendens is a privileged communication serving to
provide constructive notice to subsequent purchasers
of the pendency of an action related to real property so
that they can be bound upon the final judgment.
Boehm v. Long, 172 N.W. 862 (N.D. 1919). It is a
communication made in a “proceeding authorized by
law” and therefore is a [absolutely or conditionally]
privileged communication under N.D.C.C. § 14-0205(2). See also, Havilah Real Property Services, LLC
v. VLK, LLC, 108 A.3d 334, 345-346 (D.C. 2015).
Rodney’s filing of a Lis Pendens involves activity
protected by the First Amendment [freedom of speech
and right to petition the government].
The lower court’s order of February, 2016,
restraining Rodney from interfering with the personal
representative’s control of Rodney’s real property is not
specific enough to be considered a prior restraint on
Rodney’s First Amendment rights. See, Near v.
Minnesota ex rel Olson, 283 U.S. 697 (1931), and its
progeny. A lis pendens, filed in the probate
proceedings, was a procedural step to help preserve
Rodney and his family’s interest in the inherited lands.
The filing of a lis pendens was necessary so that no one
could claim to be acting in “good faith”, and the

32
protections of N.D.C.C. § 30.1-18-14 [Appendix K,
pages 127-128] when dealing with Steven. The Lis
Pendens was intended to help preserve Rodney’s
statutory right to void Steven’s actions under N.D.C.C.
§ 30.1-18-13. Appendix K, pages 126-127. Neither the
Lis Pendens, nor the transfer of an interest in Rodney’s
inherited lands, would justify the lower court’s shifting
of all post-remand attorney fees to Rodney under any
claimed inherent powers.
Rodney knows of no act made by him, or legal
position asserted by him in post-remand proceedings,
that was not based upon statutory authority or having
a factual basis. Rodney was clearly denied basic due
process rights when he is punished for what the law
clearly allows him to do. Bordenkircher v. Hayes,
supra.
REASONS FOR GRANTING THE WRIT
This Court should grant a Writ of Certiorari to
safeguard Rodney Hogen’s First and Fourteenth
Amendment liberty rights, and to safeguard all of the
Petitioners’ Fourteenth Amendment right to not be
deprived of their property by arbitrary actions of a
court empowered personal representative.
Petitioners Susan and Marby Hogen had a
legitimate expectation that they had acquired property,
in 2014, by appropriate quit claim deeds from their
grantor, Rodney Hogen. As owners of land since 2014,
Marby and Susan Hogen had a legitimate expectation
that North Dakota courts would provide them with
prior notice and a meaningful opportunity to be heard

33
as to their objections before they could be deprived of
their ownership interests in the lands – for that is
what is constitutionally due them under the
Fourteenth Amendment. Mullane v. Cent. Hanover
Bank & Tr. Co., supra., and Alward v. Borah, supra.
As owners of land since 2014, Marby and Susan had a
reasonable expectation that they were vested with the
statutory right, under N.D.C.C. § 30.1-18-13, to void
any of Steven’s transactions that appropriated their
ownership interests to Steven himself, or his attorneys.
In violation of their due process rights, the
North Dakota judiciary has not afforded Marby and
Susan any meaningful way to voice their objections to
Steven’s judicially granted powers over their lands.
The District Court of Barnes County refused to honor
their ownership claims, without any appropriate
pleading from Steven as personal representative, due
to Steven’s court granted powers. The District Court
of Cass County, who empowers Steven, refuses Marby
and Susan Hogen any “standing” in probate
proceedings because the Barnes County District Court
refused to quiet title due to Steven’s powers. The
decision was arbitrary or irrational under the Due
Process Clause resulting in a deprivation of property.
The North Dakota Supreme Court decision conflicts
with the spirit of the decision(s) of this Supreme Court
of the United States of America striking down any
judicial decisions that deprive litigants of their
established property rights – all such aberrant judicial
decisions should be set aside. Stop the Beach
Renourishment, Inc. v. Fla. Dep't of Envtl. Prot., 560
U.S. 702, 720 (2010); as acknowledged by Justice Scalia
on page 714, “It would be absurd to allow a State to do

34
by judicial decree what the Takings Clause forbids it to
do by legislative fiat. See Stevens v. Cannon Beach,
510 U.S. 1207, 1211–1212, 114 S.Ct. 1332, 127 L.Ed.2d
679 (1994) (SCALIA, J., dissenting from denial of
certiorari).” All consistent with Justice Scalia’s
observation, at page 715: “If a legislature or a court
declares that what was once an established right of
private property no longer exists, it has taken that
property ...” – making it a decision that should be set
aside.
The third issue presented by the Petitioners,
embraces federal rights addressed by this Court in
Richards v. Jefferson County, Ala., supra., holding that
a stranger to a judicial proceeding, whose interests are
not adequately represented by a party to the judicial
proceeding, cannot be bound by such proceedings. The
Supreme Court of North Dakota, in its opinion below,
bound Susan and Marby to Steven’s sales of all of their
interest in lands without affording them prior notice,
a meaningful opportunity to be heard, and standing in
the probate proceedings. The North Dakota Supreme
Court decision conflicts with well-established notions
for proper exercise of judicial function under our
system, early made known. “The very essence of civil
liberty certainly consists in the right of every
individual to claim the protection of the laws,
whenever he receives an injury.” Marbury v. Madison,
5 U.S. 137, 163 (1803).
Rodney, too, has been deprived of property
without due process of law being afforded to him.
Rodney should have been afforded the protection of
several North Dakota statutes that limit Steven’s

35
powers over Rodney’s lands, but Rodney was
repeatedly denied the protection of statutes. Rodney
was punished, through an award of all post-remand
attorney fees to Steven, for acts that the law plainly
allows him to do. The North Dakota courts punished
Rodney for acts protected by the First Amendment –
recording a lis pendens and advocating in judicial
proceedings – violations of basic due process rights
under the Fourteenth Amendment. The lower court’s
decision, that sustains such sanction under claimed
inherent powers, conflicts with this Court’s decision in

Bordenkircher v. Hayes, supra.

The Petitioners seek a decision of the Supreme
Court of the United States of America that recognizes
what the Fourteenth Amendment has ensured –
“...notice reasonably calculated, under all the
circumstances, to apprise” the Petitioners that their
interest in lands could be sold by a court empowered
trustee or court empowered personal representative
and a meaningful opportunity provided Petitioners, in
a judicial proceeding, to present their objections to the
sale. See, Mullane v. Cent. Hanover Bank & Tr. Co.,
supra. The Petitioners seek a decision that they, as
owners of lands, are entitled to equal protection of
probate statutes that prevent them from losing their
inherited lands due to arbitrary actions of a personal
representative – actions that promoted his own
interests at the expense of the Petitioners, and
dishonoring his mother’s Will.
The protection of settled laws, guaranteed by the
Fourteenth Amendment to the Constitution of the
United States of America, should have been afforded to

36
the Petitioners. This Supreme Court should not allow
any state court to deprive litigants of liberty and
property by denying any of them basic due process
rights.
CONCLUSION
Without legal basis, the judgment of the
Supreme Court of North Dakota deprives Petitioners of
their property without due process of law for it
eliminates established property rights legitimately
expected to exist. It is absurd to allow a judicial decree
to deprive landowners of property, or civil rights,
without adherence to law. It is equally absurd to allow
the judiciary to punish Rodney for doing what the law
clearly allows him to do – advocate in a judicial setting.
For the foregoing reasons, the Petition for Writ
of Certiorari should be granted.
David Alan Garaas
Member of the Court and

Counsel of Record

[ND #03219]
Jonathan T. Garaas
[ND #03080]
Garaas Law Firm
1314 23rd Street South
Fargo, ND 58103
701-293-7211
garaaslawfirm@ideaone.net

